No. 20A120

In the Supreme Court of the United States
WENDY GISH, ET AL., Applicants,
v.
GAVIN NEWSOM, ET AL., Respondents.

CERTIFICATE OF ELECTRONIC SERVICE

I, Samuel T. Harbourt, Deputy Solicitor General, a member of the Bar of this
Court hereby certify that on January 13, 2021, consistent with this Court’s order of
April 15, 2020, and all parties’ consent, an electronic copy of State Respondents’
Opposition to Emergency Application for Writ of Injunction in the above-entitled case
was served by electronic mail upon:
Ronald Coleman
Dhillon Law Group, Inc.
8 Hillside Ave., Ste. 103
Montclair, NJ 07042
rcoleman@dhillonlaw.com
I further certify that all parties required to be served have been served.
/s/ Samuel T. Harbourt
SAMUEL T. HARBOURT
Deputy Solicitor General
Office of the Attorney General
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
Telephone: (415) 510-3919
Counsel for State Respondents

